HHS/OIG-Audit--"Review of the New Jersey Dept of Human Services Reimbursement for Clinical Laboratory Services Under the Medicaid Program, (A-02-95-01009)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the New Jersey Department of Human Services Reimbursement for Clinical Laboratory Services Under the
Medicaid Program" (CIN A-02-95-01009)
March 10, 1997
Complete
Text of Report is available in PDF format (1.9 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides you with the results of our "Review of the New Jersey Department of Human Services Reimbursement
for Clinical Laboratory Services Under the Medicaid Program." The objective of our audit was to determine the adequacy
of procedures and controls over the processing of Medicaid payments to providers for clinical laboratory tests. Our review
was limited to clinical laboratory services involving chemistry, hematology, and urinalysis tests.
Our review disclosed that the New Jersey Department of Human Services, Division of Medical Assistance and Health Services
(State agency) did not have adequate procedures or controls to ensure that reimbursements for clinical laboratory tests
under Medicaid did not exceed amounts recognized by the Medicare program, as required by Section 6300 of the State Medicaid
Manual. In this regard, Medicare guidelines provide that claims for laboratory services in which a provider bills separately
for tests that are available as part of an automated multichannel chemistry panel should be paid at the lesser amount for
the panel. The Medicare guidelines also require that a provider be liable for overpayments it receives for overlapping
or duplicate bills.
Using statistical sampling techniques, we estimate that $297,427 (Federal share $148,714) was overpaid to providers during
calendar years 1993 and 1994 for chemistry, hematology and urinalysis tests that should have been grouped together (bundled
into a panel, profile, or complete test) for payment at a lower rate. We found that the State agency established procedures
and controls (including computer edits) for chemistry tests, but these were not fully effective in identifying and properly
grouping together these tests into lower value.